<html>
<title> - STEROID USE IN SPORTS PART III: EXAMINING THE NATIONAL BASKETBALL ASSOCIATION'S STEROID TESTING PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





   STEROID USE IN SPORTS PART III: EXAMINING THE NATIONAL BASKETBALL 
                 ASSOCIATION'S STEROID TESTING PROGRAM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2005

                               __________

                           Serial No. 109-28

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-484                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2005.....................................     1
Statement of:
    Stern, David J., commissioner, National Basketball 
      Association; Richard W. Buchanan, senior vice president and 
      general counsel, National Basketball Association; G. 
      William Hunter, executive director, National Basketball 
      Players Association; Keith Jones, athletic trainer, Houston 
      Rockets; and Juan Dixon, player, Washington Wizards........    28
        Buchanan, Richard W......................................    41
        Dixon, Juan..............................................    58
        Hunter, G. William.......................................    42
        Jones, Keith.............................................    53
        Stern, David J...........................................    28
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    18
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     5
        Prepared statement of Dr. Lloyd Baccus, medical director, 
          NBA....................................................    23
    Dixon, Juan, player, Washington Wizards, prepared statement 
      of.........................................................    59
    Gutknecht, Hon. Gil, a Representative in Congress from the 
      State of Minnesota, basketball statistics..................    65
    Hunter, G. William, executive director, National Basketball 
      Players Association, prepared statement of.................    45
    Jones, Keith, athletic trainer, Houston Rockets, prepared 
      statement of...............................................    55
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    89
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    92
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    74
    Stern, David J., commissioner, National Basketball 
      Association, prepared statement of.........................    30
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    87
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    11

 
   STEROID USE IN SPORTS PART III: EXAMINING THE NATIONAL BASKETBALL 
                 ASSOCIATION'S STEROID TESTING PROGRAM

                              ----------                              


                         THURSDAY, MAY 19, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Gutknecht, 
Souder, Issa, Brown-Waite, Porter, Marchant, McHenry, Dent, 
Waxman, Sanders, Maloney, Cummings, Kucinich, Clay, Lynch, Van 
Hollen, Sanchez, Ruppersberger, and Higgins.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Keith 
Ausbrook, chief counsel; Ellen Brown, legislative director and 
senior policy counsel; Jennifer Safavian, chief counsel for 
oversight and investigations; Anne Marie Turner, counsel; 
Robert Borden, counsel/parliamentarian; Rob White, press 
secretary; Drew Crockett, deputy director of communications; 
Susie Schulte, professional staff member; Teresa Austin, chief 
clerk; Sarah D'Orsie, deputy clerk; Corinne Zaccagnini, chief 
information officer; Phil Schiliro, minority chief of staff; 
Phil Barnett, minority staff director/chief counsel; Kristin 
Amerling, minority deputy chief counsel; Karen Lightfoot, 
minority communications director/senior policy advisor; Earley 
Green, minority chief clerk; Jean Gosa, minority assistant 
clerk; and Cecilia Morton, minority office manager.
    Chairman Tom Davis. Good morning. The committee will come 
to order. We want to welcome everybody to today's hearing on 
the National Basketball Association and the use of performance-
enhancing drugs. The purpose of this hearing is to consider the 
NBA's drug policy, how the testing policy is implemented, how 
effectively it addresses the use of prohibited drugs by 
players, and the larger societal and public health 
ramifications of steroid use.
    Fourteen years ago, anabolic steroids were added to the 
Controlled Substance Act as a Schedule III drug, making it 
illegal to possess or sell them without a valid prescription. 
Today, however, evidence strongly suggests that steroid use 
among teenagers, especially aspiring athletes, is a larger and 
growing problem.
    The Centers for Disease Control and Prevention tells us 
that more than 500,000 high school students have tried 
steroids, nearly triple the number just 10 years ago. A second 
national survey, conducted last year by the University of 
Michigan, found that over 40 percent of the 12th graders 
described steroids as ``fairly easy'' or ``very easy'' to get, 
and the perception among high school students that steroids are 
harmful has dropped from 71 percent in 1992 to 56 percent in 
2004.
    Against this alarming backdrop, the committee launched an 
investigation into steroid use in professional, amateur, 
collegiate, and high school athletics. In March the committee 
held its first hearing, focused on Major League Baseball's 
steroid testing policy and their efforts to combat steroid use. 
We followed up last month with a hearing on the National 
Football League and the changes the League and the NFL Players 
Association agreed on to strengthen their testing policy. In 
addition, the committee has received detailed information on 
the drug testing policies of the National Hockey League, Major 
League Soccer, U.S. Soccer Federation, USA Cycling, USA Track & 
Field, and the Association of Tennis Professionals.
    Today's hearing is based on information provided by the NBA 
on its steroid testing program. As was the case with the NFL 
and the NFLPA and the NBA and the National Basketball Players 
Association, they have all been helpful in educating us about 
their policy, and we very much appreciate your cooperation.
    Today, league management and the union should be prepared 
to answer serious questions about their steroid testing policy. 
In some ways, today's hearing stands in stark contrast to 
previous ones.
    On the one hand, we have heard from top league officials, 
players and trainers that steroid use is not ``an issue'' in 
the NBA, since steroids don't increase the endurance and 
agility needed to excel on the court. Perhaps that is true. 
Certainly, the NBA is not suffering under the same cloud of 
steroid use suspicion that has been hovering over other 
professional sports.
    But we are still left with some questions, given the fact 
that NBA's testing program has some ``Shaq-sized'' holes in it: 
How do we know for sure there is no steroid problem if testing 
policies aren't that strong? If there is little or no upside to 
using steroids in basketball, shouldn't the NBA then have the 
strongest of all the sports?
    I am willing to accept that steroids won't make your cross-
over dribble smoother, or move the three-point line closer to 
the hoop. What we are trying to understand is a policy that 
tests all non-rookies just once a year, and not at all during 
the regular season; trying to understand the policy under which 
a first steroids offense results in a mere five-game 
suspension, the equivalent of 6 percent of the regular NBA 
season. Compare that to the NFL, where the first offense is 
punished by a suspension of four games, or 25 percent of the 
regular season. This is a difference in the impact on a 
player's pocketbook, where it probably hurts the most and has 
the most enforcement.
    I am encouraged by Commissioner Stern's written testimony 
that the NBA has asked the union to increase the amount of 
random testing per season for veteran players, to subject 
players to off-season testing, and to increase the penalties 
for violators. However, we are concerned by the response. While 
Mr. Hunter explains in his written statement that basketball 
``can't tolerate even the perception that the integrity of our 
contests is at issue,'' he also says the current program 
``strikes the appropriate balance with regard to the issues of 
testing and discipline.''
    How do we realistically argue that testing the vast 
majority of professional basketball players once a year, during 
the preseason, is an appropriate balance?
    Yesterday, a spokesman for the Players Association 
reportedly said, ``Over the last 7 years, of the approximately 
400 rookies who have been tested randomly, not one of them has 
violated the steroid policy--zero for 400. One could argue that 
there is no evidence of any kind of use of steroids by NBA 
players.''
    I suppose one could argue that, but it wouldn't be very 
compelling, because we already know there are a handful of 
players who have tested positive for steroid use since the 
league implemented its testing policy. Taking testing results 
from rookie players and extrapolating the results to reflect on 
the entire league doesn't cut it. If there were no testing, 
there would be no evidence of use either. What does that mean, 
we don't have any testing?
    Data from the World Anti-Doping Agency on testing of 
international basketball players suggests at least some believe 
there is a competitive advantage to be found in steroids. In 
2004, 26 players tested positive. We know that basketball 
players somewhere in the world are using steroids, and the 
number is increasing.
    Since our Major League Baseball hearing, there have been a 
large number of public statements from NBA personnel and 
players on the lack of steroid use in professional basketball, 
and the responsibility of NBA players to discourage youth from 
using steroids. In advance of today's hearing, the committee 
invited players who have been outspoken on this issue to 
testify and use this as a platform to express to young players 
that steroid use is not only physically harmful, but also a 
form of cheating.
    We are fortunate that one player answered the call, Juan 
Dixon. Juan is a local hero here, playing for the Wizards, 
played for Maryland, and has a very compelling story. We just 
very much appreciate your coming forward today.
    By the time he was 16 years old, Juan had lost both of his 
parents to illness within a year of each other. Division I 
college recruiters told Juan he was too small and lacked the 
talent to play college hoops, but that didn't deter him.
    He worked hard, on the court and off, not only convincing 
the University of Maryland that he deserved a scholarship, but 
also achieving the SAT scores necessary to play college 
basketball. In 2002, Juan proved to every young athlete the 
benefits of hard work and perseverence when he led the Terps to 
their first-ever NCAA championship.
    Later that year, Juan was drafted 17th overall in the NBA 
draft. Over the past three seasons, he has continued to prove 
the college recruiters wrong, as he has helped breathe new life 
into our resurgent Washington Wizards.
    As I have often said over the past 2 months, we are here 
because more than half a million high school students have 
tried steroids, and the number is increasing every day. If our 
goal is to stem that tide, nothing is more effective than 
hearing from people like Juan Dixon; role models, stars. Young 
athletes will listen to him far more attentively than they will 
listen to the rest of us. We hope that other NBA players will 
follow your lead in speaking out to kids in public forums about 
the dangers of steroids and how there is no place for these 
drugs in organized sports.
    Our investigation has already spawned results, evidenced 
most profoundly by Major League Baseball's about-face on the 
need for more stringent testing.
    Our inquiry has also led me and Mr. Waxman and Senator John 
McCain to draft legislation creating a uniform testing standard 
for the NBA, Major League Baseball, NFL, and the National 
Hockey League. We are still dotting some I's and crossing some 
T's, but the legislation--which, frankly, will have more teeth 
than other bills introduced--will be ready for introduction 
early next week.
    With our oversight and legislation, we are hoping to send a 
clear message to young people in search of their own ``Hoop 
Dreams.'' Steroid use is harmful, even deadly. Steroid use is 
cheating. Steroid use will be punished.
    We look forward to the testimony today. We thank our 
witnesses for being here.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.001
    
    [GRAPHIC] [TIFF OMITTED] T1484.002
    
    [GRAPHIC] [TIFF OMITTED] T1484.003
    
    [GRAPHIC] [TIFF OMITTED] T1484.004
    
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    This is our third hearing on the performance-enhancing drug 
policies of major league sports, and with each sport we found a 
different set of issues. Today we turn to basketball.
    In preparation for this hearing, we had an opportunity to 
review the NBA drug policy, and with all due respect, the NBA 
policy on steroids and other performance-enhancing drugs is 
simply inadequate. Indeed, of the professional sports policies 
this committee has reviewed, the NBA policy appears to be the 
weakest.
    Under the NBA policy, NBA players face no random testing at 
all once they complete their rookie year. They are only tested 
once each year, during their 1-month training camp.
    The policy also fails to cover a vast number of drugs. 
There are literally dozens of steroids and stimulants that are 
outlawed in Olympic competition that are still legal for use in 
the NBA. The policy fails to cover performance enhancers such 
as human growth hormone or EPO, and it fails to cover designer 
steroids.
    And the NBA penalties are not strong enough to provide a 
significant deterrent. Penalties call for only a five-game 
suspension for a first violation, and only 10 games for a 
second violation. Even for a fourth or fifth violation, players 
are only subject to a 25-game violation.
    These penalties stand in stark contrast to the NBA 
penalties for street drugs, which call for a 2-year ban for the 
first offense for a veteran player. Since use of steroids is 
both illegal and cheating, this disparity in penalties makes 
little sense.
    It is pretty easy to look at the NBA policy and determine 
how weak it is, but we also have to ask what is the impact of 
this weakness. Are NBA players using steroids or other 
performance-enhancing drugs?
    There are two answers here. The first is based on 
perception, and the answer is no. The second is based on 
reality, and the answer is we really don't know for sure.
    The NBA's remarkably weak steroid program makes it 
impossible to know whether there is a problem. We do know that 
only a handful of players tested positive for steroids in the 
last 5 years. But we also know loopholes undermine the 
effectiveness of the league's steroid program. One NBA trainer 
has told us that ``basketball is not immune'' to the problem of 
performance-enhancing drugs. Another former NBA trainer told us 
that because of the lack of testing, ``even if we did have a 
problem, it would be hard to pick up.''
    Many NBA insiders--players, trainers, even the 
commissioner, Mr. Stern--have indicated that the NBA has few 
problems with steroids because they just don't apply to the 
skill set needed to play basketball. They say that basketball 
is about quickness and touch and stamina, not about brute 
strength. And they assume that steroids and other performance-
enhancers don't provide any advantage to basketball players.
    This may be true. But the New York Times yesterday reported 
on a surprising finding from Major League Baseball's steroid 
testing program. For years, experts said that only the game's 
sluggers would use steroids, not pitchers: that pitching was 
about ``proper mechanics and natural ability,'' and that 
bulking up on steroids would hurt pitchers.
    Well, it turns out that assumption was wrong. So far, 
almost half of the players caught in the Major League Baseball 
testing have been pitchers. And now experts are acknowledging 
that there are uses of steroids they hadn't thought of: that 
steroids help pitchers throw the ball faster; that they speed 
recovery times between outings and help pitchers maintain 
strength throughout the season; and even that steroids help 
players gain a mental edge.
    The baseball results tell us that we need to guard against 
relying on assumption. We really don't know what is going on in 
the NBA until the league implements an effective steroid 
testing policy.
    I know that the league and the union are entering 
negotiations for a new collective bargaining agreement. Mr. 
Stern, the league commissioner, has shared his proposals for 
the new policy with this committee, and Mr. Hunter, the head of 
the players' union, has indicated some support for a tougher 
policy on the steroid issue. These proposals are not perfect--I 
am particularly concerned that punishments will still be weak--
but they will be a significant improvement over the current 
policy.
    In the meantime, Congress stands ready to act. I will soon 
join Chairman Davis and Senator John McCain in introducing 
bipartisan legislation that will ensure that all major 
professional sports have strong performance-enhancing drug 
policies that are consistent with the Olympic standard. The 
bill would require leagues to test for a broad range of 
performance-enhancing drugs; it would have true random testing; 
and it would have tough penalties--2 years for a first offense 
and a lifetime ban for a second--that would make athletes think 
twice before resorting to cheating.
    Ultimately, I believe this is the direction we must take if 
we want to set an example for young athletes and rid all 
professional sports of performance-enhancing drugs.
    Mr. Chairman, I thank you for calling the meeting. I look 
forward to the testimony from the witnesses that are here today 
and learning what we can from all of them.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.005
    
    [GRAPHIC] [TIFF OMITTED] T1484.006
    
    [GRAPHIC] [TIFF OMITTED] T1484.007
    
    [GRAPHIC] [TIFF OMITTED] T1484.008
    
    [GRAPHIC] [TIFF OMITTED] T1484.009
    
    Chairman Tom Davis. Thank you.
    Mr. Souder will make no opening statement.
    Mr. Cummings, did you want to say anything?
    Mr. Cummings. I have a brief statement.
    Chairman Tom Davis. And then other Members will have 7 days 
to submit opening statements or can make their statements 
during their questions.
    Yes, sir.
    Mr. Cummings. Thank you very much, Mr. Chairman. I truly 
thank you for holding this hearing today, examining the use of 
steroids in the National Basketball Association and the 
effectiveness of the NBA's steroid testing policy.
    Today's hearing represents a growing awareness that steroid 
abuse in professional sports is no game. Such abuse undermines 
the credibility of the sports, sends a dangerous message to our 
young people, contributes to a growing public health crisis, 
and violates the sanctity of our laws.
    Fortunately, sports can represent so much more. At their 
best, sports can embody the virtues of teamwork, hard work, and 
integrity. Regrettably, as our hearings with Major League 
Baseball demonstrated, some professional athletic leagues have 
failed to embrace this recognition.
    I regularly work on issues related to U.S. drug control 
policy and public health in my role as a ranking minority 
member of the Subcommittee on Criminal Justice, Drug Policy, 
and Human Resources. Although the primary focus of our 
oversight is Schedule I substances, the dangers associated with 
steroid abuse should not be underestimated.
    While steroids can have legitimate medical use, the abuse 
of steroids by those seeking a competitive advantage through 
enhanced athletic performance can cause adverse health effects. 
These problems range from early cardiovascular disease to 
serious psychiatric side effects, including acute depression 
and even suicide.
    With this in mind, Congress added certain anabolic steroids 
to Schedule III of the Controlled Substances Act. Individuals 
possessing such drugs without a valid prescription are liable 
for a misdemeanor, while persons convicted of distributing, 
dispensing or selling these drugs are subject to a 5-year 
sentence for a first time offense. In clear and plain terms, 
illegitimate steroid use is a crime.
    The ripple effect caused by steroid abuse extends beyond 
the individual user. Steroid use by professional athletes in 
defiance of the law perpetuates the myth that steroids are not 
only acceptable, but are also safe. Unfortunately, these 
destructive messages resonate most with our young people.
    Consider the loss of the Garibaldi and the Hooten families 
who testified before this committee just recently. Their 
children committed suicide after using steroids, a tragedy they 
attributed to the negative examples set by professional 
athletes.
    Steroid use has become more pervasive among high schools, 
with the Centers for Disease Control reporting that 1 in 45 
high school students reported using steroids in 1993. By 2003, 
the figure was 1 in 16.
    In light of these figures, I am disturbed by the fact that 
the NBA steroid testing policy is weaker than that of the NFL 
or the MLB's. While only three NBA players have been suspended 
for steroid abuse, the absence of a strong testing policy makes 
it very difficult to undermine the scope of performance-
enhancing drug usage in the NBA. Specifically, the NBA's policy 
fails to randomly test veteran players, fails to sufficiently 
penalize players who test positive, and maintains significant 
gaps in coverage by not banning a variety of performance-
enhancing drugs.
    As the old adage goes, it is wrong to hope when you can 
have. If ever there was a time to have an effective steroid 
testing policy in sports, it is now. We must continue to push 
for a performance-enhancing drug testing policy in the NBA that 
is robust and one of zero tolerance.
    I am very pleased that Juan Dixon is here from my alma 
mater, the University of Maryland, and I want to make it very 
clear, Mr. Chairman--because I have been asked about this so 
many times on radio shows here recently, whether Juan Dixon was 
subpoenaed. I want to make it very clear that he came here to 
send a message voluntarily.
    Chairman Tom Davis. Absolutely.
    Mr. Cummings. Voluntarily, Mr. Chairman. He wanted to send 
a message that steroid use should not be a part of the NBA.
    And I want to thank you, and better luck next time in the 
playoffs; I hope you move up a little further.
    I am encouraged by Commissioner Stern's announcement of a 
proposal for a tougher testing policy in the NBA. League 
officials seem to now understand we owe nothing less to our 
children and to our fans. It is my hope that the players will 
recognize the urgent need to adopt the recommended changes as 
well.
    So, Mr. Chairman, with that, I look forward to the 
testimony and I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1484.010

[GRAPHIC] [TIFF OMITTED] T1484.011

[GRAPHIC] [TIFF OMITTED] T1484.012

[GRAPHIC] [TIFF OMITTED] T1484.013

    Chairman Tom Davis. Thank you very much.
    Yes, let me just say again Mr. Dixon is appearing 
voluntarily. He is above reproach on this. He is a leader on 
this.
    And we are just, again, honored to have you here, to have 
you step forward. I hope there is no misunderstanding on this. 
We are very pleased to have you.
    Members will have 7 days to submit opening statements and, 
again, during your 5 minutes you are welcome to use it.
    Nobody has been subpoenaed for this hearing, everybody is 
appearing voluntarily.
    We have Mr. David Stern in our first panel, the 
Commissioner of the National Basketball Association; Mr. 
Richard Buchanan, the senior vice president and general counsel 
of the National Basketball Association; Mr. William Hunter, the 
executive director of the National Basketball Players 
Association.
    We have Mr. Keith Jones, the vice president of basketball 
operations and athletic trainer for the Houston Rockets. Mr. 
Jones, who just completed his 16th year in professional 
basketball, is well respected within the professional 
basketball community. At 28, he became the first African-
American and the youngest trainer in NBA history. In 2001, Mr. 
Jones' peers voted him NBA Trainer of the Year. We look forward 
to your testimony, and thank you for being here.
    And Mr. Juan Dixon from the Washington Wizards. As I 
mentioned, Mr. Dixon is a former National Champion at the 
University of Maryland. He is the only player in NCAA history 
to accumulate over 2,000 points, 300 steals, and 200 three-
point field goals. He is the Terps' career scoring leader, was 
named Most Outstanding Player of the 2002 NCAA Final Four, and 
was an AP First Team All American. Most recently, he helped 
lead the Wizards to the second round of the Playoffs.
    It is our policy that all witnesses be sworn before you 
testify, so if you would rise with me and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Dr. Lloyd Baccus, who is the medical 
director of the NBA, was invited to testify at today's hearing, 
and he wanted to be here, but for understandable reasons he 
couldn't attend, but he did submit written testimony, and I 
think the NBA believes that Mr. Buchanan should be able to 
address the Members' questions regarding the logistics of the 
NBA steering testimony.
    [The prepared statement of Mr. Baccus follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.014
    
    [GRAPHIC] [TIFF OMITTED] T1484.015
    
    [GRAPHIC] [TIFF OMITTED] T1484.016
    
    [GRAPHIC] [TIFF OMITTED] T1484.017
    
    [GRAPHIC] [TIFF OMITTED] T1484.018
    
    Chairman Tom Davis. Commissioner Stern, we will start with 
you, and we will move straight on down the line. Thank you for 
being with us.

STATEMENTS OF DAVID J. STERN, COMMISSIONER, NATIONAL BASKETBALL 
  ASSOCIATION; RICHARD W. BUCHANAN, SENIOR VICE PRESIDENT AND 
 GENERAL COUNSEL, NATIONAL BASKETBALL ASSOCIATION; G. WILLIAM 
    HUNTER, EXECUTIVE DIRECTOR, NATIONAL BASKETBALL PLAYERS 
 ASSOCIATION; KEITH JONES, ATHLETIC TRAINER, HOUSTON ROCKETS; 
           AND JUAN DIXON, PLAYER, WASHINGTON WIZARDS

                  STATEMENT OF DAVID J. STERN

    Mr. Stern. Chairman Davis, Congressman Waxman, members of 
the committee, I am honored to be here, and I applaud the work 
of the committee, its seriousness of purpose and what it has 
done to raise the awareness of steroid use in sports and 
amongst the Nation's youth.
    We subscribe to the notionality that steroids and other 
performance-enhancing drugs have no place in the NBA. They are 
not good for our competition, they are not good for the health 
of our players, and they are bad for our young fans, because 
many millions of young fans look up to our NBA players.
    I would just say that we have been dealing with the subject 
of drugs since 1983, when the NBA was first involved in 
allegations about drug use, and our attention had focused 
initially on drugs like heroin and cocaine, and we worked with 
then-President Reagan and the White House Conference for a 
Drug-Free America, of which I was a member, to deal seriously 
with that subject.
    We learned a little bit about steroids along the way, and 
in 1999 we added steroids to our policy. Not because we 
believed that there was steroid use, but we sensed that 
something was happening in America that required us to begin to 
deal with steroids. We didn't think we had a problem, but we 
did want to stay ahead of the curve.
    The details of the 1999 policy are in my written statement. 
We believe it was a good start, but we know now that it can be 
improved dramatically. We are currently negotiating a new 
collective bargaining agreement with the players, and we have 
proposed, as the chairman and Mr. Waxman noted in their opening 
statements, random tests for all players each season, four of 
them, one random test for each player off-season, the first 
penalty, 10 games suspension--and, by the way, at the average 
salary, that would be a half a million dollar penalty to our 
players--25 games for the second; and dismissal for the third. 
You will pardon my changing sports, but the policy that we 
propose is three strikes and you are out.
    We have a prohibited substances committee, which consists 
of a representative of each of the league and the union and 
three independent drug experts in testing, two of whom oversee 
Olympic testing in laboratories. And they add, at their own 
instance or at one of the parties, additional substances to the 
list over time, and we have added a number of substances.
    And I might add, with respect to Congressman Waxman's 
opening statement, that some of those substances are substances 
that we have added that Congress has not yet seen to declare 
illegal, and I would urge you to consider declaring them 
illegal, because that is a very important subject for us, and 
we added andro and ephedra and others at a time when this body 
and the Senate chose not to act on it, and we would use the 
occasion of our being here to urge you to look at that subject 
again.
    We also recognize that with respect to public education we 
have a huge role to play, and I commit to you that whatever we 
do now, we will redouble our efforts with respect to programs 
reaching out to kids. We do an international basketball without 
borders program, where we do clinics and the like, and we will 
be reaching out there.
    We do a Read to Achieve program across America, where we 
have opened up 100 reading and learning centers, and we will be 
strengthening our anti-steroid message there. We do a Junior 
NBA and Junior WNBA, which, likewise, will have strong anti-
steroid messages. And our public service announcements, both on 
broadcast and on NBA.com, will be strengthened as we have 
learned more through these hearings about the use of steroids 
amongst our Nation's youth.
    So I thank you again for bringing ours and the public's 
attention to this very important subject, and I have finished 
with 18 seconds to go.
    [The prepared statement of Mr. Stern follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.019
    
    [GRAPHIC] [TIFF OMITTED] T1484.020
    
    [GRAPHIC] [TIFF OMITTED] T1484.021
    
    [GRAPHIC] [TIFF OMITTED] T1484.022
    
    [GRAPHIC] [TIFF OMITTED] T1484.023
    
    [GRAPHIC] [TIFF OMITTED] T1484.024
    
    [GRAPHIC] [TIFF OMITTED] T1484.025
    
    [GRAPHIC] [TIFF OMITTED] T1484.026
    
    [GRAPHIC] [TIFF OMITTED] T1484.027
    
    [GRAPHIC] [TIFF OMITTED] T1484.028
    
    [GRAPHIC] [TIFF OMITTED] T1484.029
    
    Chairman Tom Davis. Thank you very much. It is a great 
precedent here.
    Mr. Buchanan, thank you for being with us.

                STATEMENT OF RICHARD W. BUCHANAN

    Mr. Buchanan. Chairman Davis, Congressman Waxman, members 
of the committee, thank you very much for the opportunity to be 
here today. My name is Rick Buchanan, and I am the senior vice 
president and general counsel of the National Basketball 
Association. Among other duties at the NBA, I am the person who 
is responsible for the development, implementation, and 
administration of our drug program. I am directly involved with 
my counterparts at the union, Players Association in 
negotiating the terms of the policy.
    I also work with the union to select the medical director 
and the other experts that we use to oversee the program. Those 
medical experts, of course, are the individuals that we rely on 
to administer and oversee our program on a day-to-day basis. 
The top of the list of the individuals that we have selected is 
Dr. Lloyd Baccus, who is our medical director. Dr. Baccus is 
responsible for reviewing and confirming positive laboratory 
results, for evaluating and treating players who have entered 
the program, and for educating NBA players about the dangers of 
substance abuse. He has also assembled a nationwide network of 
drug counselors and medical professionals to assist players 
with substance abuse issues in their home cities.
    Dr. Baccus has served as medical director of the NBA's drug 
program for the past 16 years. The players know him and they 
trust him, and he is available to them on a 24/7 basis.
    The NBA and the Players Association has also created a 
Prohibited Substances Committee, which Commissioner Stern just 
mentioned, and that is a committee that has a representative of 
both the union and the league and three independent drug 
testing experts. This is the committee that reviews our list of 
banned drugs and makes recommendations to add additional 
substances. We did that on three separate occasions since 1999. 
We banned androstenedione, DHEA, and similar substances in one 
traunch of drugs; we banned ephedra and related products in 
another; and, most recently, we banned several new designer 
steroids.
    Members of that committee include, among others, Dr. Barry 
Sample, who was the director of the Anti-Doping Laboratory for 
the 1996 Summer Olympics in Atlanta; and Dr. Doug Rollins, who 
is the medical director of the Doping Control Program for the 
2002 Winter Olympics in Salt Lake City.
    The NBA and the Players Association also rely on our 
independent drug testing laboratory, Quest Diagnostics, and on 
a periodic basis we seek technical advice from Dr. Gary Wadler, 
who is a leading expert in the field of steroids and 
performance-enhancing drugs and who has appeared before this 
committee on two prior occasions.
    The NBA takes very seriously its obligation to maintain an 
impartial, fair, and effective drug program. We fully recognize 
the importance of this endeavor to the health and well-being of 
our athletes, the integrity of our games, and the example we 
set for young fans. Because of the medical staff we have 
assembled, because of the care we take in our processes and 
methods, because we have been drug testing our players since 
1983 and so we have over 20 years of experience in this area, 
and because we have always managed to work cooperatively with 
the Players Association once we have negotiated our policy, we 
are very confident in our ability to do this job well.
    As Commissioner Stern has noted, we believe that the NBA 
and the Players Association took a good first step with respect 
to steroids and performance-enhancing drugs when we added these 
substances to our program in 1999, and we are committed to 
having an even stronger and more effective policy when our 
current round of bargaining is concluded with the players.
    In addition to the changes mentioned by the commissioner, 
the NBA would also intend to make other technical adjustments 
to the program, such as re-evaluating with our committee 
whether we should move to a 4-to-1 ratio for testosterone 
testing, better protecting against newly designed steroids by 
banning any substance with the same chemical structure or 
biological effect as a currently prohibited drug, and taking a 
hard look at our list of banned stimulants to ensure that it is 
sufficiently broad and current.
    The NBA's drug policy has been and remains a dynamic one, 
and we are constantly striving to find ways to make it better. 
The committee's attention to this matter has been very helpful 
to the NBA, as we explore potential changes to our program. And 
I would be very happy to answer any further questions that you 
have.
    Chairman Tom Davis. Thank you very much.
    Mr. Hunter.

                 STATEMENT OF G. WILLIAM HUNTER

    Mr. Hunter. Mr. Chairman, Congressman Waxman, my name is G. 
William Hunter, and I am the executive director of the National 
Basketball Players Association, the labor union that represents 
all NBA players in collective bargaining. I am also an 
attorney, a former professional athlete, and I was honored to 
serve as the U.S. Attorney for the northern district of 
California under Presidents Carter and Reagan.
    My first round of collective bargaining with the NBA took 
place in 1998. During those negotiations, the NBA owners 
suggested that we amend our anti-drug policy by adding steroids 
to our list of prohibited substances. Despite the fact that we 
were not perceived to have any problem with steroid use in the 
NBA, the players did not hesitate to put in place a 
comprehensive program and policy that provides for education, 
testing, and discipline with regard to the use of steroids. We 
were glad to get out in front of this issue long before it 
generated the national interest that exists today, and declare 
to the world that there is no place for steroids in 
professional basketball.
    That collective bargaining agreement is set to expire next 
month, and we now find ourselves in a similar place to where we 
were when the agreement was negotiated in 1998-1999. That is, 
we still are not perceived to have a steroids problem in the 
NBA, but we again are offered an opportunity to get out in 
front of this now increasingly public issue and send a message 
to young people around the world that our players do not 
condone or tolerate the use of steroids. As we did in 1999, we 
will again do our part to deliver this important message.
    We have already advised the commissioner and the NBA owners 
he represents, and we state here publicly today, that beginning 
next season, our players will agree to even more frequent 
testing and harsher penalties for steroid use, regardless of 
whether the results of our testing over the past 7 years 
mandate that such changes be made. To be clear, with only three 
confirmed positive results in over 4,200 tests over the past 7 
years, we believe that steroids are not an issue in the NBA. 
Nonetheless, we have pledged to amend our policy.
    We have done so for a variety of reasons. First and 
foremost, whether or not steroids will in fact enhance the 
performance of a basketball player, there is little doubt that 
the use of such substances will create a perception in the 
minds of our consumers that a player has an unfair advantage. 
We cannot tolerate even the perception that the integrity of 
our contest is at issue. More so than an entertainment, the 
product we offer to the consumer is competition, and the purity 
of that competition cannot be compromised. If nothing else, for 
business reasons alone, to ensure the continued success of our 
enterprise, we must effectively police ourselves.
    Our players have not hesitated to take the lead and speak 
out publicly on this point. Among the various players who have 
been quoted by the media, I cite the example of five-time All-
Star and former Olympian Ray Allen of the Seattle Sonics, a 
former member of our union's Executive Committee, who said that 
we need ``to create a level playing field and make sure 
nobody's cheating.''
    Another well known player, Jalen Rose of the Toronto 
Raptors, also spoke eloquently to this point in a recent 
article: ``People have to understand the basics of athletics is 
fair play. That's why we shake hands after every event. I line 
up against you, whether it's middle school, high school, 
college, pro, and I try to beat you. But when it's all over, I 
understand that you did not necessarily have an unfair 
advantage over me.''
    Aside from the importance of protecting our business, the 
players will agree to amend our policy so that we can send a 
firm message on this important societal issue. Though the 
players and I do not profess to have medical expertise, there 
is little doubt that the use of steroids will cause a wide 
range of serious health problems.
    As stated by our union's first vice president Antonio Davis 
of the Chicago Bulls in an interview last month, ``I think we 
have a responsibility to high school kids, junior high kids, 
college kids, whoever, to show them it's hard work that's going 
to get them there, not cheating and tearing up your body.'' 
Derek Fisher of the Golden State Warriors, another member of 
our union's Executive Committee, echoed that theme during an 
interview last month on performance enhancers, stating that 
``we always have to be mindful of the fact that something is 
really prevalent in our country or in professional sports. I 
don't think we can be blind to the fact, because it's a very 
sensitive issue right now, particularly with the effect it's 
having on high school kids.''
    While I understand that this committee is considering 
enacting legislation regarding steroid policies in professional 
sports leagues, I would respectfully urge the committee to stay 
its hand. Collective bargaining is the appropriate forum for 
consideration and resolution of these issues. The agreements we 
forget are respected by the parties and will endure, and we 
have already shown that the parties can work successfully on 
this issue. Our bargaining to date has resulted in an effective 
policy that justifiably has kept NBA players out of the steroid 
discussion, and we have pledged to do even more in our current 
negotiations to make sure that in the future we are not pulled 
in.
    Finally, the league and players have an extremely strong 
incentive to police ourselves on these issues. Under our 
revenue sharing arrangement with the NBA, the players receive a 
significant portion of the billions of dollars in revenues 
generated each year by their performance in NBA games. If we 
detect a problem developing that will threaten our livelihood, 
we will of course take action. We acted in a decisive manner by 
imposing a meaningful policy in 1999, and we intend to do even 
more in the coming months.
    I thank you for this opportunity.
    [The prepared statement of Mr. Hunter follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.030
    
    [GRAPHIC] [TIFF OMITTED] T1484.031
    
    [GRAPHIC] [TIFF OMITTED] T1484.032
    
    [GRAPHIC] [TIFF OMITTED] T1484.033
    
    [GRAPHIC] [TIFF OMITTED] T1484.034
    
    [GRAPHIC] [TIFF OMITTED] T1484.035
    
    [GRAPHIC] [TIFF OMITTED] T1484.036
    
    [GRAPHIC] [TIFF OMITTED] T1484.037
    
    Chairman Tom Davis. Thank you very much.
    Mr. Jones, thanks for being with us.

                    STATEMENT OF KEITH JONES

    Mr. Jones. Chairman Davis and members of the committee, Mr. 
Waxman, my name is Keith Jones, and I first want to thank you 
for allowing me to appear here before you today.
    I am the vice president of Basketball Operations and the 
head athletic trainer for the Houston Rockets of the National 
Basketball Association, and have served as head athletic 
trainer for the Rockets since 1996. Prior to that, I spent six 
seasons as head athletic trainer for the Los Angeles Clippers, 
one season assistant athletic trainer for the Orlando Magic, 
and several seasons working as an athletic trainer with 
football teams in the National Football League, the U.S. 
Football League, and the NCAA.
    I also worked as an athletic trainer for the gold medal-
winning U.S. Senior Mens National Basketball Team during the 
2000 Summer Olympics in Sydney, Australia, and in the same 
capacity for the 1998 World Championship of Basketball in 
Athens, Greece, and the 1999 Tournament of the Americas in 
Puerto Rico.
    In my role as head athletic trainer for the Rockets, and in 
conjunction with our team physicians, strength and conditioning 
coaches, and other staff, I am in charge of our team's efforts 
to prevent, evaluate, manage, and rehabilitate injured or ill 
athletes. I interact with Rockets players on a daily basis, am 
present in the locker room and the training room throughout the 
season, travel with the team, and attend all games and 
practices. It is my job to be intimately familiar with the 
health status of every member of our team and to help them 
perform at the peak of their physical and mental abilities.
    I have worked as an athletic trainer in the NBA for 17 
years, and have learned a great deal in that period about the 
physical abilities of professional basketball players and the 
physical and mental objects they face over the course of their 
careers. I also worked as an athletic trainer of various 
professional and college football teams prior to joining the 
NBA, and am, therefore, in a position to compare and contrast 
the physical attributes that allow players to succeed in 
basketball and, separately, in football.
    During my tenure in the NBA, I have never observed an NBA 
player using an anabolic steroid or illicit performance-
enhancing drug. I have never been asked by a player to supply 
such a substance, nor, of course, would I ever do if asked. In 
fact, in my experience, steroids and performance-enhancing 
drugs are not part of the culture of the NBA. They carry 
enormous health risks to athletes, they provide no significant 
advantage to NBA players, and are banned by the NBA's drug 
policy. Any benefit that a player might receive from using such 
a substance are greatly outweighed by their costs.
    Even though the NBA does not currently have a problem with 
steroids and performance-enhancing drugs, I fully support the 
NBA's inclusion of these substances with its anti-drug policy. 
If we want to ensure that these drugs stay out of our game, the 
best way to do that is to have a strong and effective testing 
program.
    Again, thank you for your time and the privilege to be here 
today.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.038
    
    [GRAPHIC] [TIFF OMITTED] T1484.039
    
    [GRAPHIC] [TIFF OMITTED] T1484.040
    
    Chairman Tom Davis. Thank you very much.
    Mr. Dixon, thank you for being with us.

                    STATEMENT OF JUAN DIXON

    Mr. Dixon. Mr. Chairman and members of the committee, my 
name is Juan Dixon, and for the last three seasons I have been 
a professional basketball player with the NBA's Washington 
Wizards. Before entering the NBA, I played for 4 years at the 
University of Maryland, where I led the school to its first 
National Championship.
    Over my 3 years in the NBA and 4 years of collegiate 
competition, I have never used steroids. Nor have I ever seen 
or have knowledge of any use of steroids by my peers. Though I 
do not have a detailed medical knowledge on the impact that 
steroids have on the human body, my general understanding is 
that, in addition to the well-known health risks inherent to 
their use, the potential gains do not translate into success in 
the game of basketball.
    What I do know is what is fair. I know how hard I have 
worked to become a professional athlete and believe that 
maintaining a level playing field is vital to the integrity of 
our sport. The steroid conversation is not just about health 
risks. It is about ensuring the public and understanding that 
I, along with my peers in the NBA, have achieved success 
through years of hard work and dedication to our dreams, not 
through the use of steroids or other performance-enhancing 
drugs.
    As a professional athlete, I have an obligation to be a 
role model that not only influences kids directly about healthy 
choices and the dangers of steroid use, but one that 
contributes to a culture where hard work is emphasized and 
cheating is never rewarded.
    Thank you for the opportunity.
    [The prepared statement of Mr. Dixon follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.041
    
    Chairman Tom Davis. Well, thank you very much. And thank 
all of you.
    Let me start the questions. We have heard about the 
specific changes that Commissioner Stern would like to make to 
the NBA steroid testing policy.
    Mr. Hunter, let me ask you does the union support these 
changes?
    Mr. Hunter. The union supports some changes. I am not at 
liberty at this moment to indicate to you which changes and to 
what extent we do support them. As you are aware, Mr. Chairman, 
labor negotiations are ongoing, although they may be stayed for 
the moment, and I am sure that this is an issue that will be 
fully addressed and resolved, as Mr. Stern has alluded to, in 
the course of those negotiations.
    Chairman Tom Davis. Well, at least here, this morning, we 
got you and Mr. Stern back to the table, although maybe on a 
different issue. There is no reason to wrap up steroids with 
the monetary issues, is there, in negotiations? Can't we take 
this apart? This is an issue that has societal implications. We 
are hearing that it is not a huge problem in the NBA. It just 
ought to be taken off the table from the other negotiations and 
put aside. We would really like to hear you say we think we can 
work the changes. You understand where I am coming from?
    Mr. Hunter. I clearly understand what you are saying, but, 
with all due respect, I don't know how many labor agreements 
you have negotiated. It is a rather complex and difficult 
process.
    Chairman Tom Davis. I understand.
    Mr. Hunter. I can assure you that you are not going to be 
dissatisfied with whatever agreement Mr. Stern and I come to. I 
can give you that assurance. But I am not prepared at this 
time----
    Chairman Tom Davis. Well, I am not asking you to dot Is and 
cross Ts here.
    Mr. Hunter. No, but I am not prepared at this time to 
separate it from the negotiations.
    Chairman Tom Davis. Negotiate in public. OK.
    Mr. Hunter. I think that is unfair to me and to Mr. Stern.
    Chairman Tom Davis. OK. I am just trying to give you our 
view. I have actually negotiated a number of labor agreements 
before I came to Congress, and I wouldn't negotiate, I think, 
on television either. But I think our point is this is a very 
important issue, and if we just get a consensus here this is 
something that we agree needs to be revisited and it needs to 
be toughened up. I think you basically agree to that.
    Mr. Hunter. I agree. I agree wholeheartedly. I agree with 
the philosophy that has been expressed by all the parties at 
this table. I agree that there is no place for steroids in 
professional basketball, and I know that the players support 
that position, and I know that we will not have a problem 
getting behind this issue and adopting a policy that both the 
NBA and the Nation can be proud of.
    Chairman Tom Davis. I think we all recognize that the 
current steroid testing policy is weak on the tests, and we are 
all concerned to hear that the NBA announced that no further 
meetings are scheduled with you to reach the new collective 
bargaining agreement at this point.
    So I will ask both of you how this will affect changes to 
be made to the policy? That without a collective bargaining 
agreement, the policy isn't going to change. Is that what I 
hear you saying?
    Mr. Stern. No. I would say to you that our collective 
bargaining agreement expires on July 1, and without a new 
collective bargaining agreement there will not be a season.
    Chairman Tom Davis. OK.
    Mr. Stern. And when we open, whenever that is, there will 
be a new anti-drug agreement that reflects the positions that 
have been expressed here today.
    Chairman Tom Davis. Is that an accurate statement, Mr. 
Hunter?
    Mr. Hunter. Yes, I think that is very accurate.
    Chairman Tom Davis. OK.
    Mr. Dixon, let me just say in my opening statement I spoke 
about how you were discouraged by recruiters from playing 
Division I basketball because they said you were too small.
    Mr. Dixon. Right.
    Chairman Tom Davis. You look pretty big to me, but I know 
for basketball at that level what it takes. Could you take me 
to the steps you took in high school to earn your scholarship 
to Maryland and be drafted? I think it is important for young 
athletes to hear about the hard work and commitment it takes to 
succeed. Some teenagers take steroids to get bigger and 
stronger. You didn't do that.
    Mr. Dixon. Not at all.
    Chairman Tom Davis. Just walk us through it. It can be 
done, can't it?
    Mr. Dixon. Well, going through high school, a lot of people 
always doubted me, so I am a pretty self-motivated individual, 
but people told me that I was not going to be able to play on a 
big-time Division I level. I used all that to motivate me. And, 
as you can see, I am not the biggest guy, so with a lot of hard 
work in the gym, lifting as much weights as possible, I tried 
to develop my game, and each day got in the gym and worked hard 
and listened to people around me. So I never allowed what 
people said to get my spirits down; I stayed strong and tried 
to be the best I could be.
    Chairman Tom Davis. You did it the old fashioned way, 
right?
    Mr. Dixon. The old fashioned way.
    Chairman Tom Davis. Thank you.
    Mr. Jones, at a recent hearing the committee held on the 
NFL steroid policy, it was suggested that veteran NFL players 
misused steroids to help recover from injuries more quickly 
because steroids help build muscle growth. Do you see any 
problem with veteran NBA players misusing steroids for a 
quicker recovery from an injury?
    Mr. Jones. No, I do not.
    Chairman Tom Davis. How do you know if veteran NBA players 
were not tested during the regular season?
    Mr. Jones. To my knowledge and my education, it is just to 
look for the change in that body type over a short period of 
time; the weight gain, the muscle bulk gain, the mass gain. You 
are looking for other physical characteristics that come with 
steroid use. There are changes in the face, in the jaw that are 
noticeable; sometimes there is the acne on the face and on the 
back and other parts of your skin; and a lot of behavioral 
changes, some little uptight----
    Chairman Tom Davis. So you do not see that?
    Mr. Jones. I have not seen that, no, sir.
    Chairman Tom Davis. Thank you very much.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    First of all, Mr. Stern, let me compliment you and Mr. 
Hunter for your efforts to deal with this issue early on, and 
to now make the policy much more aggressive. I think this 
leadership is important.
    A lot of people still worry about steroid use in 
basketball, even though we haven't found any and people don't 
believe there is any use because of the kind of athletics 
involved. But we really don't know, either. And in 
international play, from the World Anti-Doping Agency's data, 
they found dozens of players who tested positive for illegal 
performance enhancing drugs. So at least in international 
competition some basketball players are clearly using the 
drugs.
    I certainly hope that you will get a stronger testing 
program, which is a small reason, but an additional reason, why 
I hope you all will reach an agreement before July 1, because 
we also want a basketball season. In fact, that makes me want 
to ask a lot of questions about your negotiations, but it is 
not my business, so I won't. But I do wish you well, though 
negotiations in any area have their ups and downs.
    The question I want to ask you is even though you are 
trying to get a better drug testing policy, many of us think it 
makes more sense to have one uniform policy for all the 
athletic sports, all the professional sports. Because if we 
look at what baseball is doing compared to basketball compared 
to football, each is handling it very differently and there is 
a different approach.
    Some people have suggested that we have Federal legislation 
to establish a uniform approach for testing for steroids and 
other performance-enhancing drugs in professional sports. It 
would be modeled after the Olympic policy and it would make 
clear that, when the leagues run their own programs and apply 
different standards, that there is that question that always 
lingers: whether negative test results mean there is no steroid 
use or that the league is not serious about policing itself.
    So I want to know your view about the idea of Congress 
adopting a tough uniform standard that is administered 
independently to answer these questions and put all these 
doubts to rest.
    Mr. Stern. I would like to see what it is, but I would 
support such an approach.
    Mr. Waxman. And how about you, Mr. Hunter, what do you 
think about such an approach?
    Mr. Hunter. I would obviously like to see a program that 
allows participation from the individual sports. I don't really 
know enough about it, what is being proposed, but just the idea 
of uniformity tends to kind of have a chilling effect, because 
I am not so sure that there is one applicable standard that 
should be introduced across the board for basketball, football, 
baseball, ice hockey, track and field, etc.
    And I am sure that it requires someone with greater 
expertise than myself to be able to respond to that, but my gut 
reaction is I have a problem with the issue of uniformity, and 
it is simply because I think we have done--notwithstanding your 
assessment, I think we have done an exceptional job in the NBA 
when it comes to steroids.
    Mr. Stern. As long as your legislation has the appropriate 
appropriations attached to it that deal with the increased cost 
for drugs that testing for which is unnecessary in basketball 
but is part of a broader standard, I would have no objection at 
all to have a uniform standard so that we can make the 
statement to our various audiences that we are all complying in 
a certain way. That is absolutely fine.
    Mr. Waxman. I think this will be a topic for further 
negotiation. But I understand your point, and I also 
acknowledge the fact that you both have not seen a specific 
proposal, but that we are talking in a more general way.
    I think a lot of people look at, Mr. Hunter, the basketball 
policy as not particularly the best, it is awfully weak now, 
and a lot of people don't believe that basketball players do 
not use steroids. Jalen Rose spoke to this issue recently and 
he said performance-enhancing drugs are an issue anywhere there 
is competition, and people are willing to do whatever it takes 
to get an edge.
    We have also talked to some of the trainers in the league, 
and they have indicated that they have suspected players of 
steroid use in the past. They have indicated the NBA is not 
immune from such use. And what we are trying to do is to remove 
the doubt in people's minds that if there is no positive 
testing, it is not because the testing is inadequate or the 
league isn't trying to really do the job of sending a clear 
signal that steroid use is unacceptable.
    Mr. Hunter. No, you are right. Clearly, the NBA is not a 
pure environment. The numbers that I read indicated that we 
have had at least 23 tests, of which 3 were clearly positive. 
Twenty of the individuals were terminated even before they 
could make the team. I understand that it is a problem, and I 
think going forward, what we have attempted to do since 1983, 
is on the cutting edge when it came to adopting and modifying 
our drug policy.
    As Commissioner Stern indicated, it was indicated in 1983, 
it was modified in 1999 to incorporate steroids. Here we are in 
2005 negotiating a new deal, and we have indicated that if 
there is a weakness or gap, it is only because of testing. I am 
convinced that once testing is implemented, it is going to 
confirm--and maybe I will get a chance to come back a year from 
now and tell you what the results of those tests show.
    Mr. Waxman. Thank you. My time has expired. I appreciate 
the answers to the questions.
    Chairman Tom Davis. Thank you very much.
    Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    First of all, Mr. Stern, let me just say that there are a 
number of industries that do random drug testing and, to the 
best of my knowledge, most of them do not require a Federal 
subsidy to do so. So we will certainly entertain that when we 
get to that level.
    As Will Rogers said, all I know is what I read in the 
newspapers. And the news that we have received here in the last 
several weeks is not particularly good.
    First of all, let me thank all of you for coming today. You 
are all here voluntarily and we do appreciate that.
    But some of the news that we have read recently, just back 
in my home State of Minnesota, was somewhat disconcerting, 
because we had heard earlier from some of the folks in Major 
League Baseball and others that, for the most part, it wasn't 
the pitchers who were interested in this, because it didn't 
really improve their ability to do things. And yet we have read 
recently that pitchers are as guilty, if not more guilty, than 
others, in terms of the testing that has been done so far.
    The other news that we got recently, as another 
professional athlete, unfortunately, again, in Minnesota was 
found to have an anti-doping kit in his luggage. I wonder if 
any of you would want to respond to the proliferation of these 
kits that make it easier to fool drug tests. And is there 
anything you can do about it; is there anything we should do 
about it?
    Mr. Stern. I will take the first cut at that, and that is 
that our method of testing, without being too graphic for the 
committee, would not allow the skirting of the test results 
that the particular kit in question would allow. The sample 
collection that we have in basketball is quite direct and does 
not allow for the kind of shananigans that are suggested by 
that device. No. 2, our tests include tests for masking 
substances, which, if found, are treated the same as a positive 
test for the drug that is being masked.
    And I just would add that I don't know that those other 
random tests that you refer to in the industry were federally 
mandated.
    Mr. Gutknecht. Mr. Jones, are you familiar with these kits 
and do you know how they work?
    Mr. Jones. Somewhat, yes, sir.
    Mr. Gutknecht. Do they work?
    Mr. Jones. I think they do work, but I can say that in our 
setting, the way that samples are collected, they could not 
work.
    Mr. Gutknecht. Well, several of you have said that these 
kinds of steroids really don't help basketball players, but I 
have had distributed to you a copy of a memo that we received 
yesterday, I think, from the World Anti-Doping Agency. It is a 
copy of a report from World Anti-Doping Agency for 
International Competition, and these are basketball players 
only. Now, we don't know which teams they are from, which 
countries they are from, but I would call to your attention the 
fact that in 2003 they found 77 adverse analytical findings for 
basketball players at the international level, and in 2004 they 
found 96.
    Now, if it doesn't improve the ability of basketball 
players, there is a disconnect apparently between the players 
and the reality. How do we square this number, 96 adverse 
analytical findings? Incidentally, the number of steroid 
findings went from 17 to 26. So somebody in basketball believes 
it enhances their ability.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1484.042
    
    Mr. Buchanan. Congressman, I think the last point you made 
I agree with. Individual players might perceive that something 
would help them, and that is the reason, of course, that we 
want to have a strong testing program. These numbers, I think 
you probably know, reflect, for the 2004 year, something a 
little less than 2 percent of the players that were tested, the 
basketball players that were tested turned up with these 
positives. The 1996 number represents, I think, 2.03 percent, 
and that was initial laboratory positives. So therapeutic use 
exemptions and other issues would drive the number down. But 
your point is well taken. Clearly, there are some players who 
believe this helps them.
    Mr. Gutknecht. Well, and I think that is the purpose of 
these hearings, to at least get the facts out on the table and, 
more importantly, to send a message--and I think the chairman 
has made very clear--to younger people that, No. 1, it is not 
worth it and, No. 2, it probably doesn't help that much. But 
somehow we have to help get that message across, and you can be 
very helpful in getting that done.
    I yield back.
    Chairman Tom Davis. Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman and ranking member. I 
appreciate the work you have done on this. I want to thank the 
witnesses for coming to testify.
    I had a chance to look over the collective bargaining 
agreement between the league and the union, and there are 
three, I think, glaring weaknesses. One is, again, we have 
talked about the substances that are allowed or not prohibited 
in the agreement. The fact that the test--Mr. Buchanan, you 
know, with all due respect, you said that this is a dynamic 
test. It is really, in my opinion, pathetic. Last, the 
penalties, given that we have had these highest paid athletes 
in the league in any league, and we have very, very minor 
penalties.
    I want to go to the issue of the testing itself, though. We 
have no random testing in basketball. Basically, every October 
we tell players we are going to test you. Most of these 
steroids are out of their system in 2 weeks, so basically what 
we are assuring by the current test is that for that 2 weeks 
prior to the test in October our NBA players have not used 
steroids.
    The other 50 weeks, under this agreement--unless you can 
show me a provision that tells me otherwise--based on this 
agreement that governs the conduct of the parties here, you 
have no random testing; for the other 50 weeks of the year 
players can be using steroids. And there is just nothing here. 
There is nothing here and it troubles me when you say we have 
had a dynamic testing policy in place and we continue to have a 
dynamic testing process in place, because I, frankly, don't see 
it.
    Mr. Buchanan. Well, if I could respond. The first issue is 
that with respect to the testing we do in the training camp 
period, the training camp period is a month-long period that we 
do the testing for all players. So just to make that point. And 
then also we test our rookies three additional times during the 
course of the year. That is first.
    Mr. Lynch. As a rookie, just his rookie year.
    Mr. Buchanan. Just the rookie, that is correct. You are 
correct.
    Second, just to clarify my remark about a dynamic program, 
what I meant was we are looking at it, reviewing it, and 
particularly with respect to our list of substances, with our 
Prohibited Substances Committee, trying to keep that current. 
That is what I meant by the reference.
    Mr. Lynch. I understand. Just briefly, I think the reason 
you don't have evidence of steroid use is because you don't 
have a testing policy here. To give you a comparison, the NFL 
randomly picks seven players from each team every week, 200 
players a week, and they find out whether folks are using 
steroids. This situation, it almost invites steroid abuse 
because there is no effective testing going on. It just 
troubles me greatly that is the condition.
    The other aspect of this I guess I would have to go back to 
the reasonable cause standard that we have in the agreement 
that would allow you to test beyond that October training 
season. Based on what the NIDA--and this is an institute that 
you have used in the NBA, the National Institute on Drug 
Abuse--it says that steroid abuse in high doses causes 
irritability and extreme aggression in some cases.
    Now, I just was wondering. I do know that back on November 
19th we had a game between the Pistons and the Pacers, and 
there was a brawl in which players actually went up into the 
stands after the fans, and it was a very bad situation. I am 
wondering did that brawl, in itself, cause--given the 
connection between aggressive behavior and steroid abuse and 
your policy--did that altercation cause the reasonable cause 
requirement to institute any type of testing of any of the 
players involved there?
    Mr. Hunter. I think that is a quantum leap, for you to 
suggest that because a fight occurred during a game, that it 
was induced by steroids.
    Mr. Lynch. Sir, this was more than a fight in a game. This 
was not a shoving match.
    Mr. Hunter. Yes, but that it was induced by steroids?
    Mr. Lynch. Excuse me?
    Mr. Hunter. That it was induced by steroids?
    Mr. Lynch. Well, you have a provision here in this 
agreement that says reasonable cause. You have another document 
that is referred to in the agreement that says aggressive 
behavior is connected to steroid use.
    Mr. Hunter. I don't----
    Mr. Lynch. Sir, I am not saying that it was caused by 
steroid abuse. All I am saying is you don't. You don't know. 
You don't test the players.
    Mr. Stern. That is correct, Congressman. And the reality is 
it worries me greatly if the absence of testing for anybody, 
including the Members of Congress, would somehow be used to 
say, well, if you don't have it, that is proof that it must 
exist; and then referring to a policy as pathetic. On behalf of 
the players of the National Basketball Association, I would 
like to say that the guilt that you seek to attribute to them 
on the basis of this policy is ill taken and very unfair.
    Mr. Lynch. Well, I don't believe it is unfair. I believe if 
you are going to test players, you ought to have something in 
the agreement that says you are going to test players.
    Mr. Stern. Well, it is a good country, and I would like to 
just disagree with your approach here. That is all.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Lynch. You are free to do that.
    Mr. Stern. Thank you.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman.
    This question is for Mr. Jones. Mr. Jones, as the trainer 
for the Rockets, do you, on a regular basis, have players come 
to you and ask you whether they can take certain dietary 
supplements, or do they come to you and say I am thinking about 
taking this, I have heard about this, is it legal, is it 
something I can do? Do they come to you as a reference for 
that?
    Mr. Jones. Yes, sir. And I actually, through the NBA's 
policy and the NBA players' policy, we have literature and 
education. I encourage them, if they are going to take 
something, to come ask me. And I take it to our team physicians 
and we look at the ingredients and where it is from, make sure 
there are not any banned substances from the list that we have 
for our drug policy, and we go from there.
    Mr. Marchant. Do you, as a trainer, feel like a policy of 
random testing would interfere with the job you do as trainer? 
Do you think it would give you any additional tools to make 
sure that the players are not involved in steroids?
    Mr. Jones. I think a stronger policy would help me and it 
would help the game.
    Mr. Marchant. Mr. Chairman, just as a comment, not as a 
result of these hearings, but as a result of the awareness that 
has been raised in part by these hearings, two of the high 
schools in my district, just last week, have adopted for the 
first time a random drug test for all of their varsity 
athletes, and the local school board has voted it and the 
parents were in agreement, the athletes were in agreement. So I 
think this is a subject that is not just at the professional 
level, but it is beginning to be considered seriously at home, 
among parents and coaches and student athletes.
    Thank you.
    Mr. Issa. Would the gentleman yield?
    Mr. Marchant. Yes, I will yield my time.
    Mr. Issa. Was that done without a Federal subsidy?
    Mr. Marchant. It was done by some additional funding 
through the local school board budget.
    Mr. Issa. Well, congratulations. Thank you.
    Chairman Tom Davis. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. And thank you for 
conducting this hearing today.
    Let me start with Commissioner Stern. Welcome to the 
committee today. The primary purpose of these series of 
hearings is to demonstrate the dangers of steroids and protect 
young people who might be tempted to use performance-enhancing 
drugs. The NBA's current penalties for performance-enhancing 
drugs are, in my opinion, a joke. No disrespect to you, but I 
think it is a joke and it is the weakest among the professional 
sports. Do you intend to toughen them to set the right example 
for younger Americans, or will Congress have to act?
    Mr. Stern. As we said before you came in, Congressman, our 
current proposals to the union call for sharply increased 
testing and penalty, and Mr. Hunter has indicated that, 
although he doesn't want it negotiated here, that the union is 
amenable to increases in both of those categories.
    Mr. Clay. I am glad to hear that.
    Mr. Stern. And I must also add that I think that the work 
that this committee has done in bringing attention to this 
subject has provided an extraordinary public service. It has 
sharpened our attention, I think, and also changed many minds 
about the necessity of setting the example. And I know the 
committee will be dealing with what has been described as a 
Zero Tolerance Committee, and I just wanted to add that the NBA 
looks forward to working as constructively as we can with that 
committee.
    Mr. Clay. Thank you for that response, commissioner. As a 
followup, when do you think we may see some movement on the 
changing of the rules?
    Mr. Stern. Prior to the next season.
    Mr. Clay. Thank you.
    For Mr. Dixon, welcome to the committee and thank you for 
being here. As an alum of the University of Maryland, I 
congratulate you on your success in the NBA and also for 
bringing a National Championship to the University of Maryland. 
How rampant do you believe steroids are in the NBA?
    Mr. Dixon. Well, to my knowledge, I haven't seen or heard 
anything about steroids in the NBA. I don't know much about it, 
but I am sure the union and Mr. Stern will come up with an 
agreement that will penalize players if they use or distribute 
steroids. So to tell you the truth, Mr. Clay, I don't know much 
about it.
    Mr. Clay. Would you support a more stringent policy?
    Mr. Dixon. Excuse me?
    Mr. Clay. Would you support a more stringent uniform drug 
testing policy for your sport?
    Mr. Dixon. Well, like I said, I am sure they are going to 
come up with cost penalties for guys who use steroids. Whatever 
direction our union goes, that is what I support.
    Mr. Clay. Do you think steroids enhance a basketball 
player's ability?
    Mr. Dixon. I don't see how they could. Usually, when people 
use steroids, I guess it is to bulk up, to gain more muscle, 
power. I guess you can use power, but for the most part, all I 
know is that we use our God-given abilities, and I don't know 
of anyone out there that is using steroids that is in the NBA 
right now.
    Mr. Clay. Thank you for that response.
    For Mr. Hunter, welcome also.
    Mr. Hunter. Thank you.
    Mr. Clay. Every year in the NBA Draft some of the most 
talented young athletes in the world, and from the time that 
they are drafted to the time that they report, many of the 
prospects significantly increase their body mass. Are you 
concerned that players might be using performance-enhancing 
drugs to accelerate this process?
    Mr. Hunter. I am not aware of any empirical evidence, any 
evidence at all, any innuendo or rumor that there is an 
increase in body mass of prospective NBA players from the time 
of the draft in June to when they show up in October. And I 
think Mr. Jones, who is seated to my left, has indicated in his 
17 years or so as a professional trainer in professional 
basketball and other sports, specifically as it relates to the 
NBA, he has seen no evidence of that. So I am unaware of that. 
I am going to look for it.
    Mr. Clay. Would you support having an independent agency 
conduct a drug test for the players? If so, why? If not, why?
    Mr. Hunter. Well, we do. We currently have an independent 
group that actually handles the drug testing for our players. 
It is a group that is selected by the league and union, and it 
is independent of us.
    Mr. Clay. It is under contract?
    Mr. Hunter. Oh, yes. Definitely.
    Mr. Clay. OK, thank you for your response.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Souder.
    Mr. Souder. Thank you. I wanted to make a few comments. 
First, that while you have a policy, we can only say that 
apparently there is not a lot of use. This 2 percent figure 
internationally, if the 2 percent got caught, it is pretty 
extraordinary. Those are the people that got caught. And the 
fact that you don't test during the season is a big loophole. 
It doesn't mean that you would actually catch anybody, it just 
means it is a big loophole. Or that you would catch it.
    Also, this 3 years and you get one-third of a year 
suspension is just a lot of what we are objecting to, and we 
have expressed our concerns about the penalties. Mr. Stern, you 
have made a stronger proposal.
    When we wind up doing national laws, enforcing drug laws in 
the United States really isn't a labor negotiation question. 
When we put drug testing in for truck drivers, the Teamsters 
didn't get to make that decision anymore. Because when policies 
evolve during the course of congressional hearings--and the 
initiatives seem to have a lot in common in all the different 
sports, a lot because of the congressional hearings--it causes 
doubt among the American people.
    Furthermore, we don't appropriate the funds to enforce the 
laws of the United States. And I know it was a casual comment, 
I know your frustration because, thus far, you haven't seen as 
much as some of the other sports, but it was illustrated in the 
high school question, it is illustrated in the truck driver 
question. We also, with all due respect to Mr. Hunter, don't go 
down to street kids and street dealers and say what do you 
think your penalties ought to be. We don't negotiate on drug 
laws.
    We like it to be done first in the private sector, first at 
the State and local level. But, ultimately, if we don't have 
the confidence, on behalf of the taxpayers of the United 
States, we may intervene. And I would say that is increasingly 
likely because it is a little too little and a little too late.
    And the funding level, increasing numbers of Americans 
follow NBA basketball, but many don't, and they are struggling 
to pay their healthcare, and they are not going to take their 
taxes to make sure your sport is clean. If we decide that, in 
fact, Congress has to intervene, you are probably not going to 
get the funding question.
    I have two technical questions. One is for Mr. Jones. Have 
you ever seen amphetamines?
    Mr. Jones. Have I ever seen amphetamine use in the NBA?
    Mr. Souder. You say you haven't seen steroids. Have you 
ever seen any amphetamine use?
    Mr. Jones. No, sir.
    Mr. Souder. Has anybody asked you about them?
    Mr. Jones. I have had many players ask just out of 
curiosity. My belief is that they were just asking out of 
curiosity after reading something or hearing something. But as 
far as them asking questions where I thought that was something 
they were thinking of doing, no.
    Mr. Souder. Would you recognize somebody's behavior changes 
if they were using amphetamines?
    Mr. Jones. Yes, I would. I think I could recognize some of 
the----
    Mr. Souder. And you don't think you have ever seen any 
player using amphetamines?
    Mr. Jones. No, sir, not in my years.
    Mr. Souder. Have you, Mr. Stern or Mr. Hunter, ever thought 
about having that included in your testing process? Are you 
considering that at this point?
    Mr. Stern. It actually is included in our testing process 
and will be, therefore, included as we increase the penalty and 
increase the tests.
    And I guess on the subject of the appropriations remarks, I 
just would like to clarify a point. That as you go down the 
lists of drugs that get added, there are some drugs, like EPO, 
which are prevalent and I think would be acknowledged in 
particular sports, not basketball or any sports that have 
appeared here could be affected by it, which are the most 
expensive drugs for which to test.
    And I would just urge that although I would support and be 
in favor of Federal legislation here, that it is easy to toss 
in a list of drugs and some notionality should exist of where 
the line gets drawn in terms of the number of testing and the 
complication of testing.
    Mr. Souder. I have one additional question, but that is a 
wise warning, that as we look at particularly as we get a 
pattern, and with the changing hormonal growth drugs, that it 
may vary slightly sport by sport, and we have to figure out how 
to accommodate that with the costs and masking agents.
    My last question is--and this is once again to Mr. Jones--
is it possible that people can use steroids in the off-season 
and get it out of their system by the time you institute 
testing in pre-season or during the season?
    Mr. Jones. I think you said something as you asked me the 
question about masking agents. That is possible. I think the 
tough part with steroids, compared to other drugs, the anabolic 
steroids, those things are oil-based, so they are going to stay 
in your system longer, so they are harder to detect and they 
are harder to mask. But to say that masking is impossible would 
be wrong.
    Mr. Souder. I thank you all. Your answers are helpful.
    Chairman Tom Davis. Mr. Ruppersberger.
    Mr. Ruppersberger. First, Commissioner Stern, I want to 
acknowledge the fact that, in my opinion, I think you have done 
a very good job and you are a strong leader to maintain the 
integrity of a game that this country really likes and has a 
lot of influence on all generations. There are inconsistencies 
that I want to deal with, though. To begin with, you have a 
testing program that is different between veterans and new 
players coming in. I think that program is the veterans are 
tested, I think, once a year and the new people coming in. Why 
the inconsistency in that testing procedure?
    Mr. Stern. Well, at the time we put it in, there was little 
or no testing in sports on steroids and steroids did not appear 
to be a problem, so we added it, we added the once a year, and 
then to sort of send a message, we thought the best place to 
start it was with random testing on rookies. We now understand, 
in light of the attention that has been placed on this, that 
random testing for veterans is something that is a necessity.
    Mr. Ruppersberger. Well, I think it is good that you 
recognize that. I want to bring up another issue, too, because 
a lot of what we deal with in politics and what you deal with 
is perception, and we know that.
    Mr. Stern. Correct.
    Mr. Ruppersberger. Sometimes it is not reality. And you 
talk about steroids. Basketball is more a game of quickness and 
speed than it is bulk, unless you are going up against Shaq. 
But basically the Houston Rockets coach, Van Gundy, I think you 
fined him $100,000 and threatened that he be banned for life 
for the kind of comments that he made. And that was strong. 
That showed leadership. You were trying to protect the 
integrity and that coaches should not criticize the integrity 
of the officials, which is an important part of the game.
    Don't you think that as strong as you were with that, that 
because of the perception that NBA basketball needs to be just 
as strong? I mean, you are stronger on street drugs than maybe 
you are on steroids. Whether or not steroids are a reality--I 
don't think we have the evidence to say that, but we do know 
this: that all of these sports, these professional sports that 
are very popular, younger generations are influenced.
    Juan Dixon is a star. Younger generations look up to Juan 
Dixon and other players. And it seems to me that because of the 
hearings--which I was concerned about at first, but I think the 
chairman and Mr. Waxman have done a great job to put this on 
the forefront, because it is about the impact with younger 
generations. And I think it is the responsibility of Juan's 
generation to hold this game in trust and to do the right thing 
for these younger kids who will come forward.
    Because of the Van Gundy situation and because of the 
inconsistency in the testing procedures, because of the fact 
that steroids isn't in the same level as you have the street 
drugs--and I think street drugs, if you are caught, you are 2 
years out right away; and that is a deterrent. So are you going 
to consider addressing these issues?
    Mr. Stern. Well, I guess I would say that I agree with your 
praise for the committee and what it has focused on this. I 
would say to you that the five-game suspension, which is what 
we have for steroids on a first offense, for the average NBA 
player would be a quarter of a million dollars. So that is 
somewhat higher than the $100,000 that Coach Van Gundy was 
fined.
    And with respect to the statement that we should send to 
kids, I would tell you that the committee's hearings have--I 
had my doubts at first too, frankly, and I am now persuaded 
that it is appropriate for an athlete coming into the NBA, in 
effect, to participate in the statement made by all players, 
commissioners, unions, and the like that steroids have no place 
in sports, period.
    Mr. Ruppersberger. And any use of steroids is cheating. 
That is not what we want in our professional sports. And that 
is why I would hope that after these hearings that you will get 
together with the Players Association.
    Mr. Dixon, I am a Terp too. I didn't realize my friend Mr. 
Clay was a Terp from Missouri. I am also from Baltimore, so I 
have watched your career, and I know your aunt, who is 
president of the city council. I think you have really held 
yourself in a situation where you have dignified your 
profession when you were at the University of Maryland and now 
that you are at the Wizards.
    Based on the fact that you came from a tough background, 
you came from the street, what deterrents do you think that we 
need to have so that you can send a good message to kids as it 
relates to drugs? Are you concerned that your sport needs to 
have stricter penalties, not as much to catch players, but to 
show that we are buttoned up and we are not going to be able to 
tolerate any drugs because it is going to affect the dignity of 
our sport?
    Mr. Dixon. Well, you know, growing up in Baltimore City I 
was surrounded by a lot of drugs, and growing up as a kid you 
choose what direction you want to go into, and I chose to go in 
another direction, I focused on sports. And, yes, I agree that 
there should be stricter penalties. Like I said, I am sure the 
union and Mr. Stern and Mr. Hunter will come up with an 
agreement that will have harsh penalties if guys use steroids. 
That is pretty much all I know and all I am going to answer.
    Chairman Tom Davis. Thank you. The gentleman's time has 
expired. Thank you.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T1484.043

[GRAPHIC] [TIFF OMITTED] T1484.044

[GRAPHIC] [TIFF OMITTED] T1484.045

    Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    I want to thank the panel for being here. I had read your 
testimony before I arrived.
    Any law enforcement officer will tell you that when they 
arrest somebody for a crime, it is usually only 1 percent of 
those arrested that this is the first time that crime has ever 
been committed. Using that logic, I wonder why, Mr. Stern, a 
recent newspaper article said that you were willing to 
introduce another random steroid testing? Why would you not 
want to have more than just one other random drug testing?
    Mr. Stern. Actually, you are quite right. In our proposal 
to the union is four additional random drug tests and one 
additional random test out of competition, which is in the off-
season. So we are actually proposing--plus the one in the 
exhibition season. So we are actually proposing as many as six.
    Ms. Brown-Waite. That is great. Obviously the newspaper 
article that I had was incorrect.
    Mr. Stern. Correct.
    Ms. Brown-Waite. And any of us involved in politics knows 
that very often it is not always the correct thing that is 
printed in the paper.
    Mr. Stern. So Will Rogers maybe wasn't familiar with 
today's newspapers.
    Ms. Brown-Waite. My next question is for Mr. Jones. As a 
former trainer for the Olympic National Basketball Team, 
obviously, you are familiar with the U.S. Anti-Doping Agency 
and the World Anti-Doping Agency's doping control. Is that 
correct that you are familiar with that?
    Mr. Jones. Yes, ma'am.
    Ms. Brown-Waite. How does the NBA's prohibited substance 
use compare to WADA's prohibited substance list? And the second 
question would be does the list include designer steroids, and 
do you feel that some substances tested for in Olympic athletes 
should also be tested for in NBA players? And I look forward to 
your response.
    Mr. Jones. OK. That is a pretty big question. I am familiar 
with the WADA list and the IOC and the USOC lists, and they are 
very extensive. I think, for the most part, the NBA list covers 
a lot of the banned substances on both ends, whether they are 
anabolic steroids or drugs of abuse.
    Do I think that the NBA's list should cover everything that 
they have? That would be tough. I think there is a lot of 
supplements--call them nutritional supplements, call them 
vitamins, whatever--that NBA players--not a lot that they use, 
but a lot of the same ones are pretty consistent with it--that 
I really couldn't say for sure if they are on the IOC list or 
the WADA list.
    Ms. Brown-Waite. Could you give me an example of some of 
the supplements?
    Mr. Jones. Well, it is just some of the things the guys 
take, some of the drinks that they have, things with creatine 
and creatine phosphate. I don't know what the levels are, if 
that is a thing with WADA. Some of the pre-game drinks that 
they have that have certain substances, I don't know what the 
concentration level of WADA is. We have had our physicians look 
at them, and they have deemed them safe for our players. And 
our physicians have that banned substance list that comes from 
the NBA, and also for the Olympics, so we are actually using 
it.
    As far as the Houston Rockets are concerned and NBA 
trainers, we are actually using that same list, because we 
don't know when our players are going to get selected for an 
international competition. Somebody may have made an Olympic 
team and you have to get an alternate. Those alternates pop up 
all the time, so our guys, we make sure that they stay within 
the guidelines.
    Ms. Brown-Waite. Well, I think the basic question is if it 
is good enough for the Olympic National Basketball Team, why 
should this not be a universal standard?
    Mr. Jones. I would agree with you there. I think the banned 
substances list for both are pretty accurate. I think what the 
WADA and the IOC get into are more of the designer steroids and 
more of the growth hormones that we have not yet tested for, 
and, yes, I do think those should be included.
    Chairman Tom Davis. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Chairman.
    I just, in listening to the testimony today, can't help but 
find some artificial distinctions that are troubling to me. And 
before I get into those, I do want to ask Commissioner Stern 
for a little bit of clarification.
    Did you just state that the new proposed policy would have 
four additional random drug tests throughout the season, one 
out of season and one in the----
    Mr. Stern. Actually, I misspoke. It is one random test in 
training camp, three additional random tests in season, and one 
out of season. Mr. Buchanan has corrected me. So it is not six, 
it is five. But, yes, we are proposing the opportunity for 
three additional random tests in season.
    Ms. Sanchez. OK. And would those random tests apply to 
veterans and rookies?
    Mr. Stern. Correct. To every NBA player.
    Ms. Sanchez. OK. Because I was finding it a little bit 
troubling that there is this artificial distinction between 
rookie players and veteran players.
    One of the other distinctions that is a little bit 
troubling to me is that the current policy right now covers 
testing for street drugs and covers testing for steroid use or 
performance-enhancing drugs, but the penalties for the street 
drug use are far stricter. And the example that I am going to 
give you is that an NBA veteran who is caught using cocaine 
faces a minimum of a 2-year ban from the league, but the same 
veteran who uses steroids faces only a five-game suspension; 
and even after multiple offenses, the player would face a 25-
game suspension.
    That makes no sense to me. Both substances are illegal and 
one is actually helping somebody cheat in a sport where you 
want to maintain the integrity of the game. So how could you 
justify having such a large difference in penalties?
    Mr. Stern. Well, actually, let me take you through the 
history of it. The cocaine, which has been in effect since 
1983, when we dealt exclusively with non-steroidal drugs, 
recreational drugs, if you would, that was for for-cause 
testing when we caught somebody who didn't come forward into 
our program. As we came to learn more about steroids, in the 
first instance we were concerned about the fact that there were 
certain tainted nutritional supplements and that since our 
policy is absolute, no matter what--if you are found to have 
the substance in your system, you were gone, period--the 
possibility for accidental contamination, which we didn't think 
was the case with cocaine, caused us to move more slowly with 
respect to steroids. We are concerned about that because in 
addition to wanting to set an example and also wanting to make 
our integrity level as high as it can possibly be, we do have 
concerns for the individual rights of our players.
    Ms. Sanchez. And I can understand that. But with respect to 
the concerns about contamination, if I am not mistaken, the NFL 
and the Olympics have a way to deal with that, and I think part 
of that is educating players about it and holding them 
responsible for their actions.
    Mr. Stern. Actually, the way that the Olympics has been 
doing it is with a series of modifications that allow you to 
consider ameliorative conditions, where every player who is 
found guilty of some drug use has the opportunity to appeal--
not widely reported--and endless hearings go on with respect to 
that. In our view, we don't even want the discretion. We think 
it is appropriate for it to be absolute, and we deal with the 
issue in the penalty phase so that the penalties get stepped 
up.
    Ms. Sanchez. But you don't think that there is an inherent 
message that you are sending by saying that for illegal street 
drugs we are going to penalize you in a much more severe 
manner, and with respect to performance-enhancing drugs--which 
are not only illegal, mind you, but again undermine the 
integrity of the sport--we are going to have stepped up 
penalties?
    Mr. Stern. Actually, I tell you that there may be some 
inconsistencies, but in 1983, when our NBA players stepped up 
and said we think it is most important for us to have this drug 
policy because kids in our neighborhoods are using those drugs, 
and they wanted to send a strong message. We have been evolving 
with respect to steroids, and now we are there, and that is 
reflected by the conversations that we and the union are now 
having and the propsals that I have put before this committee.
    Ms. Sanchez. Thank you.
    Mr. Dent [presiding]. Your time has expired.
    Thank you. I have a question for the commissioner, Mr. 
Stern. Can you hear me?
    Mr. Stern. Yes.
    Mr. Dent. A question for Mr. Stern. Following up on 
Representative Brown-Waite's comments on supplementals, I know 
that tainted supplements are a source of concern for the NBA, 
given the strict liability of your policy. Have you considered 
certifying certain supplements as safe, as the NFL has begun to 
do?
    Mr. Stern. It is on our agenda. It is hard for us to think 
that if we certify a company, that puts us into the business of 
drug manufacturing and supplement manufacturing, and thereby 
vouching for its product; and that at least gave us some pause, 
Congressman.
    Mr. Dent. OK. And just to followup, have you considered 
using a USADA certified lab to conduct your steroid testing?
    Mr. Stern. Yes. In fact, we do.
    Mr. Buchanan. At risk of correcting the commissioner, we 
currently do not use a WADA-certified lab. The lab that we use 
is certified by the College of American Pathologists and the 
Substance Abuse and Mental Health Services Administration. 
There are two WADA-certified labs in North America, UCLA and 
Montreal, and we are currently looking to move our program 
potentially to one of those labs starting next season in order 
to take advantage of the best science that they have, because 
there are some substances that only those labs are able to test 
for in this country.
    Mr. Stern. To help resurrect me, who heads the lab that we 
currently use?
    Mr. Buchanan. Who is our director of toxicology?
    Mr. Stern. Isn't he the head of the----
    Mr. Buchanan. We will just have this conversation.
    Mr. Stern [continuing]. Moscow Olympics?
    Mr. Buchanan. Yes, correct, Victor Uralets is our director 
of toxicology at Quest Diagnostics.
    Mr. Stern. OK. Thank you.
    Mr. Dent. And I guess maybe to Mr. Jones, the NBA currently 
has certified drug collectors in half the cities that have 
professional basketball teams. Are you familiar with which 
cities have the ability to collect those drug samples and which 
cities don't, and is Houston one of them?
    Mr. Jones. Yes, as far as my knowledge, the NBA has a 
security person in every city that is certified to collect 
those samples, and I know who our representative is there.
    Mr. Dent. Could anybody else comment on that, maybe Mr. 
Buchanan?
    Mr. Buchanan. Sure. We have a staff of security 
representatives that are employed by the league office. There 
is a security representative for each of the 30 teams. We have 
trained a subset of that group, half, to collect specimens for 
us in our drug testing in the pre-season and during the season, 
and those collectors, we utilize them regionally and throughout 
the country to get the samples from the players.
    Mr. Dent. OK. The reason I asked is because some of these 
steroids might only stay in the body for a few days and they 
can cycle it. I have no further questions at this time.
    Chairman Tom Davis [presiding]. The Chair recognizes Mr. 
Cummings.
    Mr. Cummings. I missed what you just said about the people 
who do the collecting, because, for us, the integrity of the 
tests are very, very important. When we examined the baseball 
folks, we were extremely alarmed that there were so many 
loopholes in the testing. And I was just wondering. Tell me who 
does the testing? Who collects the specimens?
    Mr. Buchanan. Our drug testing specimens are collected by a 
staff of NBA security representatives. These are people who are 
all former law enforcement individuals; they work under the 
direction of our NBA head of security, who is a former official 
with the FBI. They are trained in the procedures and the chain 
of custody that is required to collect drug samples. All of our 
samples are collected under direct observation.
    Mr. Cummings. Now, Mr. Stern--and maybe this would also go 
to Mr. Hunter--I am sure it has been made clear here--I am 
sorry I had to leave; I had to go over to the Senate about this 
nuclear option business--but let me ask you this. I notice that 
you all came up with the new proposed penalties. Do you think 
the likelihood of them going through is pretty good?
    And I am wondering--and perhaps this is for you, Mr. 
Hunter--we here come from all sides of the country, and I come 
from the inner city of Baltimore, where young men are going to 
jail every day for Schedule I, II, and III drugs. And they look 
at this steroid thing and they say to themselves, well, wait a 
minute, these guys are bulking up and I am going to jail; and 
they are getting paid a million and I am unemployed.
    And then they ask the question what's up with that? And I 
am just wondering if the players understand that the Congress 
is losing a little patience, and that there is not a lot of 
sympathy up here for these millionaire players who may be 
bulking up and, by the way, severely damaging the credibility 
and the integrity of the game.
    And I am just wondering do you think that is getting 
through, Mr. Stern, that message?
    Mr. Stern. Well----
    Mr. Cummings. I mean, in light of the fact that you just 
came up with some stricter--and I applaud you for that, by the 
way.
    Mr. Stern. Yes. Well, I would say to you that I would like 
to parse your question and say to you that the committee has 
gotten our attention, it has done the service, and we want to 
make clear that our game is free of that. My concern by you 
raising the question suggests that NBA players are bulking up, 
and I am not prepared to acknowledge the truth of that 
assertion.
    Mr. Cummings. Well, let me back up, then. Let us take that 
way and let me ask the question another way. First of all, do 
you think that if other players are using steroids, do you 
believe that they believe that is cheating? Do you believe it 
is cheating?
    Mr. Stern. Yes, I do believe it. I believe our players 
believe it, and I believe our current drug policy--in its 
intention if not quite yet in its fully desired effect--makes 
that statement forcefully on behalf of both the union and the 
league.
    And with respect to your point on criminal enforcement, as 
far as I am concerned, we are not law enforcement. And if 
somebody is illegally using drugs, wherever they are, including 
NBA players, the law enforcement authorities should do what 
they deem appropriate.
    Mr. Cummings. Do you have a response, Mr. Hunter?
    Mr. Hunter. No. I am in agreement with what Mr. Stern is 
saying relative to his last comment. I was a Federal prosecutor 
for about 8 years and a State prosecutor for about 10 or 11 
before that. I served as U.S. attorney for northern California. 
So I have been deeply involved in the criminal aspect for a 
long, long time prior to coming to the NBA. It is my contention 
that our players are controlled by the same laws that control 
everybody else, and I am sure that whatever we put in place, 
the message that we intend to deliver will be delivered and the 
players will conform their conduct accordingly, assuming there 
is a problem.
    Mr. Cummings. And I take it that, in listening to you, Mr. 
Stern, you think that if there is a problem--I am not putting 
words in your mouth, I just want you to answer me--just based 
upon what you said a few minutes ago, that it is not a major 
problem in the NBA, use of steroids?
    Mr. Stern. I would say that I have no evidence of it. But I 
think we owe it to the public at this point, based upon the 
concerns that have been raised by this committee, to 
demonstrate that what I believe to be the fact is truly the 
fact, so we don't have to debate about bulking up versus speed. 
If you are an NBA player, you will be subject to random testing 
that both protects your health, protects the confidence in the 
game, and sends the message to kids that this is something that 
is not a part of sports.
    Mr. Cummings. Thank you.
    Chairman Tom Davis. Thank you very much. We will just go 
through a few more questions, then I think we can let you go.
    Mr. Hunter, our staff has been in contact with the Players 
Association regarding the formation of a Zero Tolerance 
Roundtables to foster discussions between a wide cross-section 
of both the professional sports and amateur sports worlds, 
including medical experts, high school coaches, anti-drug 
advocacy organizations, and we are pleased that the NBA has 
agreed to participate. But we haven't gotten the same 
commitment from the Players Association. Can we have that 
commitment?
    Mr. Hunter. Yes.
    Chairman Tom Davis. OK. Thank you very much. And we just 
need you to work with us to get some players that would be part 
of this. They are the real role models. They don't care what 
Commissioner Stern or Mr. Waxman or I think about it, they look 
up to the Juan Dixons of the world; that is who the kids are 
idolizing out there, and it is just important they make those 
kind of statements.
    Juan, that is why we are so pleased to have you here today 
making your statements.
    I have one piece I am trying to followup on. I think we 
have almost closed on--this is on the NBA current policy on the 
drug collectors in half of the cities that have teams back and 
forth. You admit it is probably not as solid as you would like 
it, is that fair to say?
    Mr. Stern. We are absolutely quite happy with the 
collection. We accept--and you can see from our proposals that 
additional penalties and additional random tests and 
consideration of what, if any, additional substances should be 
added are all things that we should be looking at.
    Chairman Tom Davis. Because of where the collectors are, 
some teams could only be tested at away games, so in theory, at 
least, it would be easier to game if somebody wanted to do 
that.
    Mr. Stern. I don't think so. Mr. Buchanan.
    Chairman Tom Davis. We don't have any evidence anybody is 
gaming yet, but I am just saying----
    Mr. Buchanan. Well, I think, actually, to the contrary, 
Congressman. Because we use a subset of the full 30 security 
reps, those security reps that do our drug collections, they 
travel. So the players on a given team are not going to know 
who they are going to see to do their collections, when they 
are going to see them. It actually adds, in my opinion, an 
additional element that is a positive for our program.
    Chairman Tom Davis. OK, that clarifies it, as far as I am 
concerned. I just remember a few years ago, when the Wizards 
were building the MCI Center downtown and I had Wes Unseld 
before me under oath, and I asked him a question, I said, are 
the Wizards going to have a winning team next year. And this 
was before, of course, Juan Dixon arrived on the scene.
    Mr. Stern. And what did he say?
    Chairman Tom Davis. He said, I can promise you exciting 
basketball. That was his answer. So let me just ask this. 
Commissioner Stern and Mr. Hunter, are we going to be able to 
work this out, do you think? Not just on the drug side, but 
your other issues? You have millions of fans around the world 
watching.
    Mr. Hunter. We are going to try.
    Chairman Tom Davis. You are going to try?
    Mr. Stern. We will give it our best shot.
    Chairman Tom Davis. We are all counting on you. Thank you 
very much.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I want to thank each of the witnesses that appeared before 
us today. You have been here voluntarily and your testimony has 
been very forthright and helpful to us, and I very much 
appreciate it. I gather that you and I both think that steroids 
is not a big problem with basketball players, but the truth of 
the matter is we don't know for sure because the testing 
program that you have in place now is so weak. That is why I am 
grateful for your leadership, Mr. Stern and Mr. Hunter, to 
negotiate a stronger testing policy.
    Mr. Stern, I appreciate your willingness to support the 
idea of uniform legislation.
    I wanted to point out to Mr. Hunter that when we talk about 
uniform legislation, we are talking about a minimum, and the 
different sports groups can do other things; it is not a one-
size-fits-all for everyone. I know details are important, and I 
just wanted to point that out to you. We will go over some of 
the details at another time.
    There was a heated exchange with Mr. Lynch. As I heard what 
Mr. Lynch was saying earlier, I don't think he was saying that 
steroids caused the brawl, but he was saying, in effect, the 
brawl would have triggered the reasonable cause clause. So I 
just want to point that out. Not to engage in it any further, 
but I think there was a misunderstanding.
    Mr. Stern. I was reacting to the difference between some of 
the words you used and the word pathetic that Mr. Lynch used.
    Mr. Waxman. I see. Well, that was your response, but there 
was an earlier exchange.
    Mr. Stern. No, but I understand. And, actually, we were 
sufficiently engaged with that event in so many difficult 
ways--with respect to security, service, crowd control, 
protection of players, and protection of fans--that didn't 
trigger the issue that you raised, but I understand the issue 
well.
    Mr. Waxman. Well, you certainly were much more involved in 
it, but I thought he was being somewhat criticized for an 
interpretation of what he had to say, which isn't what I heard 
him say.
    Mr. Stern. I understand.
    Mr. Waxman. But I can see how you would have that feeling.
    Also in the questioning by Mr. Ruppersberger, when he 
talked about Van Gundy, I think you answered part of the 
question when you talked about the monetary fine being 
comparable to what monetary fine in other circumstances, but 
the disparity was that your first reaction was to ban him from 
the game, which is a pretty harsh penalty. It didn't go that 
far, but that would have been a very harsh one, banning him for 
life. That is a harsh penalty, and when you think about the 
kind of penalty for drug use it is a lot different. So there is 
a disparity in how strongly you felt about what might be an 
appropriate penalty.
    Mr. Stern. Well, but I have to delve further into the facts 
of the situation with you, and it had to do more with his non-
cooperation in revealing sources. And I have known the House to 
react strongly when people appearing before it refuse to either 
testify or give information. So it was not about simply the 
criticism of the game, but it was about his unwillingness to be 
forthcoming when asked questions that he was required to 
answer.
    Mr. Waxman. I wouldn't want our House ethics policy to be a 
model for you.
    Mr. Stern. Congressman, I didn't say that.
    Chairman Tom Davis. I was going to ask which policy, Henry.
    Mr. Waxman. But on the other hand, I wouldn't think that a 
House ethics policy ought to call for banning for life for an 
offense under one circumstance, but a slap on the wrist for 
another one if they both go to the integrity of the game and 
are very serious problems.
    Mr. Stern. Actually, people have come to expect more of our 
athletes and coaches, unfortunately, than even of commissioners 
or Members of Congress. We somehow apply a higher standard. And 
in the case of Mr. Dixon, even though I didn't go to the 
University of Maryland, I am proud to be sitting on this panel 
with him, and I think he is a great representative of all of 
our NBA athletes.
    Mr. Waxman. Well, our goal is, because of the reverence in 
which sports are held in this country, that we want the 
American people to feel that you are meeting higher standards, 
even if they look at politicians and think there might be a 
higher standard that politicians could achieve. But I am not 
really asking for a response.
    Mr. Stern. We agree, and we are going to make you proud of 
us, Congressman.
    Mr. Waxman. Well, we are going to work together with you, 
and I just think that your being here was very helpful. This is 
the beginning of further discussions that we will all have.
    Mr. Stern. Thank you very much.
    Mr. Waxman. Because we have the same goal in mind.
    Mr. Stern. We do.
    Chairman Tom Davis. Thank you.
    I think, Mr. Souder, do you have one last?
    Mr. Waxman. Oh, I did want to also thank Keith Jones for 
his testimony.
    Chairman Tom Davis. Very helpful. Thank you.
    Mr. Waxman. And Mr. Dixon. I was told by Karen Nelson, who 
is my chief of staff, who is a fanatic Wizards fan, that I 
should keep asking questions until she could get back from a 
doctor's appointment just so she could see you. So I hope she 
will arrive in time. But you have been terrific to be here. 
Thank you.
    Chairman Tom Davis. Thank you.
    Mr. Souder has one more question.
    Mr. Souder. I do, by the way, favor drug testing for 
Congressmen; have done that myself. I believe we should lead by 
example. Not that any of us are likely to be seen as steroid 
users. I think you can look at the picture of us and see that 
is probably the case.
    I had one particular question. I agree that the testing 
during the season, possibly off-season, and the penalties are 
the biggest questions, and you are attempting to address those. 
But there is another one that is emerging that the World Anti-
Doping Agency, as you said, is looking at what you test becomes 
critical, and that is gene doping. Because what we have been up 
until now is behind.
    In other words, as steroids and human growth and this one 
isn't there, but as it has been in multiple news stories in 
Seattle and the AP in the last couple months, steroids are old 
news for edge seekers. And the World Anti-Doping and the U.S. 
Anti-Doping policy says the non-therapeutic use of cells, 
genes, genetic elements, or of modification of gene expression 
having the capacity to enhance athletic performance is 
prohibited. If that could at least be part of any policy, I 
think we are looking at that here because this would just 
dramatically alter it in a different way.
    Mr. Stern. I couldn't agree with you more, Congressman. I 
have been doing some reading on that in line with some other 
work I do at the university level. The potential for genetic 
therapy which will arguably corrupt athletic competition is out 
there. Whether we can stay ahead of the curve I think is going 
to be a real issue, but we are committed to, with other sports 
and with this committee, to attempt to do that.
    Mr. Souder. And my last is a question, but first I want to 
say thanks for working with Partnership for Drug-Free America. 
You used several examples in your testimony of a number of you 
doing local efforts. But the NBA is a little unusual compared 
to the other sports, in that you take kids straight out of high 
school, which has, for example, tremendously helped the Indiana 
Pacers, for which we are very appreciative. But are you also 
doing directed high school outreach, where you have such a huge 
impact, even more probably than other sports?
    Mr. Stern. You know, we are. We go, for example, to the 
places like the McDonald's All American Tournament, where we 
bring in representatives to talk to the kids who have been 
identified as likely pro prospects, and with our Junior NBA and 
Junior WNBA, which go younger, we are going to increase that. 
But I must tell you that if we can find a way together to get 
the kids at a younger age than when they are high school 
players, that, to me, would be the most important thing to do. 
And it has to be more than just public service announcements. 
There has to be a complete cultural shift on the entire 
subject.
    In the mid-1980's, when Mrs. Reagan was deeply involved 
with Just Say No, I am pleased to say that the NBA was deeply 
involved with that effort. And despite my initial skepticism, 
there actually was a change in the way kids behaved vis-a-vis 
drugs, and I think it had something to do with her efforts. And 
if we could somehow recreate that collectively, I think it 
would be terrific.
    Mr. Souder. Thank you very much.
    Chairman Tom Davis. I want to thank all of you. This has 
been a great panel. It will help us. As we move our legislation 
forward, Commissioner Stern, Mr. Hunter, we will share with you 
our thoughts as the process moves forward.
    The hearing is adjourned.
    [Whereupon, at 11:36 a.m., the committee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson, Hon. 
Carolyn B. Maloney, and Hon. Jon C. Porter follow:]

[GRAPHIC] [TIFF OMITTED] T1484.046

[GRAPHIC] [TIFF OMITTED] T1484.047

[GRAPHIC] [TIFF OMITTED] T1484.048

[GRAPHIC] [TIFF OMITTED] T1484.049

[GRAPHIC] [TIFF OMITTED] T1484.050

[GRAPHIC] [TIFF OMITTED] T1484.051

                                 <all>

</pre></body></html>
